<html>
<title> - OVERSIGHT OF THE DEFENSE TRAVEL SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-147]
 
                 OVERSIGHT OF THE DEFENSE TRAVEL SYSTEM

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 15, 2008


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]






                                  -------

                   U.S. GOVERNMENT PRINTING OFFICE
43-785                      WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001






















               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
              Michael McErlean, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, April 15, 2008, Oversight of the Defense Travel System..     1

Appendix:

Tuesday, April 15, 2008..........................................    29
                              ----------                              

                        TUESDAY, APRIL 15, 2008
                 OVERSIGHT OF THE DEFENSE TRAVEL SYSTEM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Dominguez, Michael L., Principal Deputy Under Secretary of 
  Defense for Personnel and Readiness, Department of Defense.....     3
Fisher, David, Director, Business Transformation Agency, 
  Department of Defense..........................................     4
Mandelbaum, Dr. Jay, Research Staff Member, Institute for Defense 
  Analyses.......................................................     7
Williams, McCoy, Managing Director, Financial Management and 
  Assurance, U.S. Government Accountability Office...............     6

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    35
    Dominguez, Michael L.........................................    38
    Fisher, David................................................    52
    Snyder, Hon. Vic.............................................    33
    Williams, McCoy..............................................    61

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Akin.....................................................    83
    Mr. Conaway..................................................    83
    Mr. Johnson..................................................    84
    Dr. Snyder...................................................    81
                 OVERSIGHT OF THE DEFENSE TRAVEL SYSTEM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Tuesday, April 15, 2008.
    The subcommittee met, pursuant to call, at 3:06 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Good afternoon. 
We appreciate you all being here with us this afternoon.
    Our hearing topic today is on the Defense Travel System 
(DTS). The Subcommittee on Oversight and Investigations is 
holding this hearing to receive testimony regarding recent 
studies, the current status and any planned improvements to the 
Defense Travel System.
    This is the second subcommittee oversight event on this 
issue today. We heard from Department of Defense (DOD) 
travelers this morning. We are undertaking this hearing at the 
request of our Readiness Subcommittee that asked us to look 
into it.
    Since it first began in 1998, the system has had numerous 
developmental problems, operational test failures, premature 
deployments, functionality problems, low usage and general user 
dissatisfaction. That was, of course, almost 10 years ago now.
    Congress directed that DOD conduct an independent study on 
DTS in the National Defense Authorization Act for fiscal year 
2007, and the Institute for Defense Analyses (IDA) published 
its report March 2007. IDA found that most of DTS's technical 
problems had been remedied by early 2007, and that the system 
itself was salvageable, a fairly dramatic conclusion compared 
to conclusions that had been reached in the past 10 years.
    We are interested in today whether IDA's recommendations 
have been or will be instituted, and what efforts are under way 
to improve the usability of the system for travelers. We have 
anecdotal evidence that DTS is difficult and time-consuming 
unless travelers are used to using the system or are trained on 
it frequently. We also worry about the cost-effectiveness of 
the system versus hidden costs and opportunity costs.
    For our panel today we are joined by the Honorable Mike 
Dominguez, the Principal Deputy Under Secretary of Defense for 
Personnel and Readiness at the Department of Defense; Mr. David 
Fisher, the Director of the Business Transformation Agency, the 
Department of Defense; Mr. McCoy Williams, the Director of 
Financial Management and Assurance of the U.S. Government 
Accountability Office (GAO); Dr. Jay Mandelbaum, research staff 
member at the Institute for Defense Analyses.
    We thank you all for being here. I will say right now that 
any written statements that you have presented to us will, 
without objection, be made a part of the record. And we go to 
Mr. Akin for any comments he would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 33.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman. And thank you all for 
joining us here today.
    Today's hearing raises a new subject for this subcommittee, 
the Defense Travel System. While the topic may appear mundane, 
you get a sense of the program's importance when you take into 
account the numbers that are involved. Currently the 
Department's defense travel enterprise comes at an annual cost 
of $12- to $13 billion.
    DTS was designed to improve how the Department manages 
travel by modernizing travel processes, maximizing efficiencies 
and lowering costs. Unfortunately it took too long for the 
program to stand up and run effectively. I hope that the days 
of being behind schedule and cost overruns are past. And it is 
my understanding that DTS is much improved, and that the 
Department has begun to reap the benefits it sought from the 
program back in 1998.
    And so this is not to say all is fine. There are still 
challenges, and the Chairman has mentioned usability. Making 
DTS a user-friendly portal for booking and collecting travel 
reimbursements were two of the primary reasons this committee 
required the Department to have a federally funded Research and 
Development Center study on DTS. This initiative resulted in 
the Institute for Defense Analyses study that made a series of 
recommendations on improving the system, but fell short of 
recommending an overhaul of DTS. I would like to hear from the 
Department on their progress in implementing the IDA 
recommendations.
    Mr. Chairman, that concludes my statement, and thank you 
very much for scheduling the hearing. We are looking forward to 
our witnesses.
    Dr. Snyder. Thank you, Mr. Akin.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 35.]
    Dr. Snyder. Let me also add that we don't have any hidden 
agenda on this or any conclusions we have already reached. It 
is a complex area. Defense travel has always been complex. I 
admire Secretary Dominguez for taking on the tasks that he does 
in his job. It is a complex business. But we believe that it is 
the responsibility of this Congress to see what is going on and 
perhaps contribute to it in any way that we might to becoming 
more efficient.
    We will begin with Secretary Dominguez, and we will just go 
right down the row.
    Secretary Dominguez. Let me say we will put that light on--
although his light is not going on. Well, anyway, go ahead. I 
was going to say if the light ever does go on, and it turns 
red, ignore it. If you need to--it will just give you an idea 
of when the time goes.

   STATEMENT OF MICHAEL L. DOMINGUEZ, PRINCIPAL DEPUTY UNDER 
SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS, DEPARTMENT OF 
                            DEFENSE

    Mr. Dominguez. Well, thank you, Mr. Chairman. And let me 
first say before getting into the subject how delighted I am to 
work with you again as I certainly enjoyed working with you as 
the Chairman of the Military Personnel Subcommittee. And I do 
want to start out by thanking you for the work that you did in 
support of our all-volunteer armed forces on that committee. We 
have certainly benefited from your leadership, sir.
    Now, as to the Defense Travel System, let me say first a 
little history lesson is that the Under Secretary for Personnel 
and Readiness assumed responsibility for the system in February 
of 2006, and we assumed responsibility first for travel policy, 
which heretofore had been fragmented across the Department, and 
for the Defense Travel System, which had previously been under 
the sponsorship and leadership of the Defense Finance and 
Accounting Service and was largely at that point focused on the 
funds disbursement issue. So we inherited a Defense Travel 
System that, you know, had legitimate concerns, legitimate 
challenges, and they were challenges affecting whether the 
system was meeting the user needs and user expectations, and 
clearly it wasn't.
    And there were concerns about the cost of the system and 
the cost of administrating defense travel. There were concerns 
about the technical approach that we were using in DTS as 
government-developed software versus commercial off-the-shelf 
applications. And they were concerned about whether we would 
get the benefits associated with such a major investment of DOD 
and taxpayer resources.
    So, you have pointed out that there were several looks at 
Defense Travel System by the GAO, by the inspector general and 
by IDA. All of those looks provided to Dr. Chu, the Under 
Secretary, valuable advice on how to get the Department's 
travel-improvement initiatives back on track. And I would like 
to say that we have and will implement all of the 
recommendations of the IDA study which is the subject of this 
hearing, except for the recommendation that DTMO, the Defense 
Travel Management Office, complete the fielding of DTS, and we 
have left that responsibility with the military services. But 
every other case we are moving out to implement or have 
implemented the IDA recommendations.
    So where are we now? We are largely deployed, upwards of 85 
percent of the sites that we are going to, and we have--the 
tough ones that are left are small, and they are distributed, 
and they are largely Guard and Reserve locations. So that is a 
challenge that remains in front of us.
    We are midway through--my personal assessment--midway 
through functionality, the trip types, the kinds of trips that 
DTS will cover. So we are about midway through that. About 70-
odd trip types, and we are about 30 of them now serviced by 
DTS.
    I believe we have crossed the goal line for voucher 
processing, that is paying the travelers and paying the 
vendors, and that is not surprising given this system was 
originally developed by accountants for accountants. But we are 
still in the midway toward the--our goal of satisfied users. So 
we have--that is the furthest part of our journey that lies in 
front of us.
    I do want to say then in summary that we are--we have new 
customer-centered management for this enterprise in which you 
can have confidence. We have extensive stakeholder involvement. 
We have a superb partnership with our acquisition agent and 
developer, the Business Transformation Agency. So I think in 
sum we are on course to successfully achieving the purpose that 
the Congress established for us to do: Sound management of 
DOD's travel enterprise and real visibility and control of that 
$12- to $13 billion of taxpayer resources that was mentioned 
here. So I look forward to your questions.
    Dr. Snyder. Thank you.
    [The prepared statement of Mr. Dominguez can be found in 
the Appendix on page 38.]
    Dr. Snyder. Mr. Fisher.

 STATEMENT OF DAVID FISHER, DIRECTOR, BUSINESS TRANSFORMATION 
                 AGENCY, DEPARTMENT OF DEFENSE

    Mr. Fisher. Chairman Snyder, Congressman Akin, members of 
the subcommittee, thank you for the opportunity to provide 
information on the progress the Department of Defense has made 
with the Defense Travel System. Two-and-a-half years ago, 
Department Secretary of Defense Gordon England stood up the 
Business Transformation Agency, the BTA, as a new entity 
chartered to guide the transformation of business operations 
throughout the Department and to deliver enterprise-level 
capabilities that align to warfighter needs. In this regard, 
the BTA has a current portfolio of 27 information technology 
(IT) business systems, and one of those is DTS, the subject of 
today's hearing.
    DTS provides DOD military and civilian travelers with an 
end-to-end business solution that automates the Defense travel 
processes. DTS allows travelers to create travel orders, 
validate authorizations, make travel reservations, receive 
approvals, generate travel vouchers and directly deposit 
payment to the traveler's personal account and the government 
charge card vendor for reimbursement. The system went into 
initial broad-based production use in 2003 and was transitioned 
to the BTA for program management responsibility in September 
of 2006.
    The Defense Travel Management Office within the Office of 
the Secretary of Defense for Personnel and Readiness (OSD P&R) 
provides functional oversight and ownership of DTS and 
obviously has become a very close partner of ours in the BTA's 
DTS program office.
    In response to customer feedback and feedback from studies 
like the ones conducted by the GAO, it was clear to both the 
DTMO and the BTA that improvements were needed in the DTS 
solution as it stood in 2006. While travelers were very pleased 
with timely payment of their travel vouchers, they were less 
than pleased with a number of functional elements of the travel 
management portion of the solution.
    Now, that area became the focus of a major upgrade to the 
system that went into production a little more than a year ago, 
and with that upgrade, the DTS reservation process was 
completely reengineered. The Reservation Refresh, which is what 
we called the upgrade, resolved a lot of the issues that had 
prompted Congress to mandate the independent study of DTS, and 
those benefits were recognized by the Institute for Defense 
Analyses, IDA, in that March 2007 assessment.
    Some of the things specifically that IDA noted, that DTS, 
as a result of Reservation Refresh, now provides lowest-cost 
routing consistent with DOD policy; accesses a more complete 
airline flight inventory; improves usability by pricing all 
flights as displayed, grouping flight choices into easy-to-
understand categories, securing reservations at the point of 
selection, and providing potential policy violation notices at 
the point of selection.
    In its recommendations, IDA determined that DOD should 
continue to use the Reservation Refresh version of DTS, and 
that it should be given a chance to work while additional 
improvements to DTS usability are pursued. In the longer term, 
IDA also recommended that DOD explore a service-oriented 
architecture, or SOA, approach after the primary risks had been 
sufficiently mitigated.
    Now, the results since the launch of Reservation Refresh 
have been positive. Usage of the tool continues to rise at an 
almost exponential rate, as can be seen in the chart to my 
right here. In fiscal year 2006, DTS processed 1.4 million 
travel vouchers. In fiscal year 2007, that number increased to 
2.4 million travel vouchers, a 72 percent increase. And at the 
current pace, DTS will process more than 3 million travel 
vouchers in fiscal year 2008.
    Consistent with the IDA report findings, the DTMO and BTA 
continue to plan for and add capabilities that will bring value 
and utility to the Defense traveler and identify and implement 
improvements to usability and functionality to support the DTS 
economic model of maximizing transactions through the system. 
For the ongoing DTS road map, BTA will examine the upcoming 
results of the DTMO usability study and will augment the 
functionality with additional types of travel, including 
special-circumstances travel and permanent-duty travel. Both of 
those will be enabled in 2009. In fact, all travel types are 
expected to be supported by DTS by the end of fiscal year 2010.
    Acknowledging the advantages service-oriented architecture 
may eventually bring to systems such as DTS, the BTA has taken 
some initial steps to address IDA's longer-term recommendation 
about SOA. The pending release of Technical Refresh, a software 
enhancement designed to improve the utility of DTS, establishes 
an initial framework for this strategy. A SOA approach breaks 
functionality into discrete services. As a modular concept, SOA 
allows identified services to be provided by either private 
sector or government organizations external to the program 
itself. Interestingly enough, DTS already incorporates a number 
of SOA attributes in the existing solution, but because SOA is 
relatively untested within the DOD and is not without some 
risk, we are adopting a phased approach as we consider 
additional opportunities presented by service-oriented 
architecture. BTA is currently conducting a pilot designed to 
test and thus mitigate risk associated with the maturity of the 
SOA infrastructure within the DOD.
    Working with the DTMO, the feedback we have received from 
DOD travelers as well as from studies conducted by IDA and 
others indicate to us that Reservation Refresh has been a 
positive step. We also know that we can do more, and we will 
continue to upgrade DTS based on additional feedback and 
business cases that will translate into requirements that we 
can build into the tool.
    Mr. Chairman, we appreciate and value the support Congress 
has given us over the last few years as we have established new 
governance and discipline to our business transformation 
efforts across the DOD, and we thank you and the members of the 
subcommittee for the opportunity to be here today, and I would 
be pleased to answer your questions. Thank you.
    Dr. Snyder. Thank you.
    [The prepared statement of Mr. Fisher can be found in the 
Appendix on page 52.]
    Dr. Snyder. Mr. Williams.

   STATEMENT OF MCCOY WILLIAMS, MANAGING DIRECTOR, FINANCIAL 
MANAGEMENT AND ASSURANCE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Williams. Thank you. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity to discuss our 
previous findings related to problems encountered by the 
Department of Defense in its efforts to implement the Defense 
Travel System. My testimony today is based on our prior reports 
and testimonies from 2005 and 2006, and I will highlight three 
key findings we previously reported upon.
    First, the Department did not have quantitative metrics to 
measure the extent to which DTS was actually being used. We 
identified several key issues with regard to DTS utilization. 
Rather than report utilization based on individual site system 
utilization data, DOD relied on outdated information and 
reporting of DTS utilization to DOD management and to Congress. 
Also, because DTS officials were unable to identify the total 
number of travel vouchers that should have been processed 
through DTS, we previously stated that DTS's reported 
utilization rates may not have been reliable.
    The underutilization of DTS also adversely affected the 
estimated savings. As we previously reported, at least 31 
legacy travel systems were operating within the Department at 
that time. We acknowledge that some of the existing travel 
systems could not be eliminated because they performed other 
functions that DTS could not process. However, in other cases, 
the Department was spending funds to maintain duplicative 
systems that performed the same functions as DTS. Finally, 
because of the continued operation of the legacy systems at 
locations where DTS had been fully deployed, DOD components 
were paying higher processing fees for processing manual travel 
vouchers as opposed to processing the travel vouchers 
electronically through DTS.
    Second, DOD had not addressed several functional problems 
associated with weak requirements management and system 
testing. Requirements provide the foundation for system 
testing. They must be complete, clear and well documented to 
design and implement an effective testing program. As discussed 
in our September 2006 report, we identified that only 159 of 
the 246 unique city pair flights that should have been 
identified according to the DOD requirements were displayed. As 
a result, DTS users did not have access to needed flight 
information.
    Third, our September 2006 report noted that two key 
assumptions used to estimate cost savings for the September 
2003 DTS economic analysis were not well supported. 
Consequently, the economic analysis did not serve to help 
ensure that the funds invested in DTS were used in an efficient 
and effective manner. Two primary areas represented a majority 
of the over 56 million of estimated annual net savings DTS was 
expected to realize: Personnel savings of $24 million and 
reduced commercial travel office fees of $31 million.
    In conclusion, Mr. Chairman, as we have reported on 
numerous occasions, overhauling the Department's business 
operations has been a daunting challenge for DOD, and the 
travel management area is no exception. In our 2 reports, we 
made 14 recommendations to help improve the Department's 
management and oversight of DTS. We will be following up on 
DOD's actions to address our recommendations in accordance with 
our standard audit follow-up policies and procedures. We would 
be pleased to brief the subcommittee on the status of the 
Department's actions once we have completed our follow-up 
efforts.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to answer any questions that you or other members of 
the subcommittee may have. Thank you.
    [The prepared statement of Mr. Williams can be found in the 
Appendix on page 61.]
    Dr. Snyder. Dr. Mandelbaum.

    STATEMENT OF DR. JAY MANDELBAUM, RESEARCH STAFF MEMBER, 
                 INSTITUTE FOR DEFENSE ANALYSES

    Dr. Mandelbaum. Thank you. Mr. Chairman, distinguished 
members of the committee, I thank you for the opportunity to 
talk to you today. I have got no formal statement for the 
record. The March 2005 IDA report serves that purpose.
    Dr. Snyder. We will include that, actually refer to that as 
your opening statement, because that is what gets submitted. 
That will be made part of the record.
    Dr. Mandelbaum. Okay. For my opening remarks now, I simply 
wanted to tell you that IDA took the task of doing this report 
very seriously. We made the study as objective and as fact-
based as we could. It was conducted by a multidisciplinary team 
who were completely independent of the Defense Travel System 
and, in fact, at the onset had very little knowledge of DTS 
itself, and I look forward to answering your questions about 
the report. Thank you.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    Dr. Snyder. Thank you all.
    We think that the clock is working here, and we will all go 
by our five-minute rule and probably have time to go around a 
couple of times, although we may have some votes coming up.
    I have to ask, Mr. Fisher, on page eight, you say, ``Web 
service enablement allows the program the flexibility to 
further decompose the DTS solution set into more modular 
elements.'' Am I the only person here that has no idea what in 
the hell that means?
    Mr. Fisher. We would have to poll the group. Probably not.
    Dr. Snyder. What does that mean?
    Mr. Fisher. So the concept that IDA recommended pursuing 
along the lines of service-oriented architecture is, I think, a 
multifaceted element of technology capability that has come 
along a way in the last few years. Fundamentally what it means 
is it provides an opportunity instead of building something, if 
there is a reusable service that is out there in the technology 
world today, rather than you building it, you subscribe to it, 
which is one of the things that DTS already does.
    But DTS did not build the global distribution systems or 
the software that we get from ITA that actually manages the 
flight inventory and the pricing. Again, the GDSs manage the 
bookings, the government travel card provider. Those are all 
external services that DTS subscribes to.
    The IDA study has recommended that we look at potentially 
leveraging other services that can be provided by other 
partners rather than things that we have built ourselves. The 
technology that has come, I think, a long way in the last few 
years makes that easier. The concept is not new. The technology 
has gotten better that enables that flexibility.
    Now, the challenges to make that technology work requires a 
few things to be in place. Number one, there has to be an 
existing service, which is one of the reasons to date why we 
have not pursued a service for the travel management portion of 
DTS, because there is no other service today that provides the 
business rules in a service or a piece of software that the 
Department of Defense has to comply with. So there is no other 
service for that piece of DTS that exists in the marketplace. 
If there was, we could take a look at it, but there isn't. We 
have the most complicated travel rules probably on the planet, 
and we have a tool now that subscribes to these things that 
manage airline inventory and things like that, but we built the 
piece that manages our own specific rules. We have a technology 
capability that could subscribe to such a service if one 
existed, but it does not exist today.
    The other piece that makes this kind of technology 
challenging for us is that it is based on standards, technology 
standards, and the DOD is also behind the times in moving to 
that standards-based environment internally within the 
Department. That makes adopting the SOA, the service-oriented 
architecture technologies, very challenging. I hope that helps.
    Dr. Snyder. I am kind of sorry I asked, to be honest with 
you. I have got a minute left or a couple of minutes. I wanted 
to ask several questions. I don't know who to direct them to.
    Secretary Dominguez, I guess I will direct them to you in 
some specific things. The reports that we got back, by the way, 
are that the voucher processing is much better. People really 
appreciate the money getting through quickly. But I have a 
series of specific questions that may just take very short 
answers.
    One of the complaints we heard, and I heard personally from 
people, is they go online, they get a flight all set up, they 
make their choice and, boom, then they get a notice now there 
is no government-rate seats. Why doesn't the system--and then 
they have to start over. Then they have to go back again. And I 
talked to one person who said it happened to both her and her 
husband. Her husband gets so frustrated after the third or 
fourth or fifth time, he just goes on the phone and does it by 
phone, I guess, to the Commercial Travel Office (CTO), which 
defeats the whole idea. Why doesn't the software have something 
in there so that--you know, if there is a government fare 
available, that is what you would get so you don't have to 
choose a flight and then be told, no, you actually can't choose 
that flight?
    Mr. Dominguez. Sir, I will start, and then Dave maybe can 
answer some more. But the first is that it does now. There is 
different tabs so you can--it shows the government fares, and 
then there is a tab for nongovernment fares, because the 
business rules say where there is a government fare, you must 
take it. Where there is not a government fare, you have to go 
get somebody's approval of it. But the Reservation Refresh, I 
think, added that functionality so you can go in and look at 
non--when there is no government fare available.
    There are also some complex travel environments, the 
overseas environment, for example, where today you need manual 
help. So one of the things we are doing that is consistent with 
the IDA study is to have a button in DTS where you can push it 
and say, get me out from the Commercial Travel Office because I 
am obviously in a situation that the simple software can't deal 
with.
    Largely and in broader terms, we are looking at the 
usability of the software, how intuitive it is, and how helpful 
it is and how responsive to user needs, and that review is 
ongoing now. Lots of different users helping us think about how 
we need to revise, upgrade this software to make it intuitive 
for people and not frustrating.
    Dr. Snyder. My time is up. We will go to Mr. Akin. But I 
sat down yesterday with a very knowledgeable user, and we 
didn't see any--I didn't see any tab there that said, here, 
just hit this tab, and you will just get the government fares. 
In fact, the person said, well, they ran it just before I got 
there, I guess, just to make sure it was working, and they made 
a selection and everything, and they had a reject, and it said, 
you chose that one, but you don't get it.
    Mr. Akin.
    Mr. Akin. I appreciate your coming in. And not being a user 
of the system or knowing anything about it before this morning, 
or actually yesterday afternoon when some of my staff put me on 
the system and all, the thing didn't laugh itself off the 
table, so I figured it had to be somewhat user friendly because 
computers and I don't mix very well. I used to sell them for 
IBM, but I tried never to use them.
    But there were a series of different people that were 
different users that we chatted with this morning, and they had 
a couple of ideas, and certainly a couple of them appealed to 
me because of the fact that I run into this kind of thing in 
other places. One, it would be nice, they said, to have a 24-
hour hotline where you could call if something were going 
wrong. And somebody said, we have that, and the trouble was you 
couldn't get through on any of the lines. And the people that 
were users talked about being stuck in Turkey needing to get a 
flight, and they didn't really want to call a colonel at 4:00 
in the morning in his home, because they had some political 
wisdom and all. So it would be nice, I suppose, if there were a 
place where, if there is a problem, you can make a call to get 
in. That was one recommendation that we heard.
    The other thing that we heard apparently were places where 
there are legacy systems that are not part of the current--that 
are scheduled to be brought on or brought in, and I thought it 
might be helpful to know how do you evaluate which are the most 
important ones to--obviously you mentioned that you have 
locations that you are going to bring up, but also additional 
applications. How do you weigh those things, and which ones do 
you anticipate bringing up in the near future?
    Mr. Dominguez. Sir, let me start speaking to the 24-hour 
hotline. We do have a 24-hour hotline. We are going to try to 
do more to make sure it is available or people are aware of it.
    Mr. Akin. Are there not enough operators to answer the 
phone?
    Mr. Dominguez. That is a new one to me, sir.
    Mr. Akin. There were a whole bunch of guys that were users, 
and they all said that they didn't know of any--one of them 
said there was one, but you can't get on it, so it didn't do 
you any good to have it.
    Mr. Dominguez. If that is, in fact, the case, then they are 
right, and we will have to look at that, because it needs to be 
accessible to people. So we will check into that.
    Dr. Snyder. Mr. Secretary, would you consider a question 
for the record and give us a written? That may occur with 
several of these questions today.
    Mr. Dominguez. Sure.
    [The information referred to can be found in the Appendix 
beginning on page 81.]
    Mr. Dominguez. With regard to the legacy systems, we are in 
this study in process now of going through and identifying what 
legacy systems are out there by location, what functionality 
they perform, and what would it take for them--for us to pull 
the plug on them as DTS functionality proceeds. We anticipate 
that in fiscal year 2011, 2011, that we will be shutting those 
things down because DTS fielding will be complete in fiscal 
year 2009, and then the functionality will cover the whole 
range of travel services by the end of fiscal year 2010. So in 
2011, we will be shutting down all of those legacy systems.
    Mr. Akin. All of them?
    Mr. Dominguez. The ones that do just travel. In some 
systems, travel was just a sideline of what they do. So we are 
going through the analysis now to be able to do that. But 
nobody should be running a travel system in 2011. At the end of 
fiscal year 2011, everybody else should be out of the business.
    Mr. Akin. Don't you have some sort of a Program Evaluation 
and Review Technique (PERT) chart? I mean, I know this is the 
military. You guys have got to have PERT charts.
    Mr. Dominguez. That is being developed now.
    Mr. Akin. So you don't know which ones you are going to be 
doing next?
    Mr. Dominguez. No. They are all over. Every installation 
has its own little unique solution to that, different services, 
different agencies. So we are going through that analysis now 
to develop that plan to do the orderly shutdown.
    Mr. Akin. So--that seems hard for me to imagine, that you 
have DTS--I mean, you have been putting different blocks and 
functionality online. You are saying even some of it you spun 
off to outside sources, and so there must be some plan as to 
which ones you are working on or moving through, right?
    Mr. Dominguez. Well, sir, in terms of functionalities, 
yeah, different travel types, yes.
    Mr. Akin. That is what I am talking about. For instance, 
you don't have a place where if a soldier is going to be moved 
from one place to another for a year with his wife or kids, or 
maybe without, you don't handle that kind of----
    Mr. Dominguez. Right now we don't do the permanent change-
of-station (PCS) travel. That is one of the ones we are trying 
to get to. When we get to----
    Mr. Akin. But things like that, don't you have a list of 
which order you want to do those in or which ones are more 
important to do first?
    Mr. Dominguez. Yes, sir. Those are travel types, not legacy 
systems.
    Mr. Akin. So that is different then?
    Mr. Dominguez. Yes, sir. These are functions that need to 
be performed that are performed----
    Mr. Akin. And you have a listing of which ones are more 
important to do?
    Mr. Dominguez. Yes, sir.
    Mr. Akin. Now, the legacy systems, you do not have that yet 
because you don't know what all the legacies even do yet?
    Mr. Dominguez. That is correct, sir.
    Mr. Akin. And some of the legacies are doing multiple 
things where you are only doing a piece of it?
    Mr. Dominguez. That is correct. And they are doing things 
other than travel in some cases, because they were developed 
locally to support a local installation's business needs.
    Mr. Akin. Okay. So from the additional functionality, then, 
what are the--I am out of time.
    Dr. Snyder. Go ahead.
    Mr. Akin. Additional functionality, what are the top 
priorities to bring on? Stream the top two or three things you 
are looking to put on most recently.
    Mr. Dominguez. I think, sir, that--well, let me take that 
one for the record as well. PCS travel or permanent duty travel 
is clearly one of the big ones, but I can get to you the--for 
the record if I might----
    Mr. Akin. How about foreign travel?
    Mr. Dominguez. Yes, sir. I mean, that is another big one. 
It is a very complex challenge for us as well.
    Mr. Akin. Okay.
    [The information referred to can be found in the Appendix 
beginning on page 83.]
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman. Thank 
you all for being here.
    I wonder for a novice, first time to hear some of these 
issues, help me understand within the system the difference 
that you have or the policies that surround the refundable 
tickets and the restricted tickets? And if I was trying to get 
to get a quick flight, and I wasn't--I knew that I wasn't--when 
I said a quick flight, it could still be within the realm of 
the restricted fares--and I was having trouble with the system, 
can somebody just book their own flight and get a voucher 
later? How does that work? Just talk about the restricted 
flights.
    Mr. Dominguez. Well, see, ma'am, the first is that the 
Department--there is various laws as well as policy that 
governs travel within the Department of Defense. So the Fly 
America Act governs, so we need to use U.S.-flag air carriers. 
The policy is you use the General Services Administration 
(GSA)-negotiated city pair rates, and so it is those vendors 
and those rates whenever possible.
    There are certainly situations where there is not a U.S.-
flag carrier or a U.S.-flag partner, there is not a city pair 
available, and in those kind of incidences with the right 
approvals you can get--that is the kind of thing you need help 
from the Commercial Travel Office, and they will help you 
negotiate your way through that swamp.
    Mrs. Davis of California. What I am referring to, though, 
is if you know that the restricted fare is far less than the 
refundable fare, and you know that you are definitely going to 
have to take this trip--I mean, I am just trying to understand 
the opportunities that you have even within the system.
    And the other question really relates--and perhaps Mr. 
Williams to speak to--often we do create systems. Clearly, we 
have thousands and thousands of people traveling, so the 
importance of having a system like this, you know, is one that 
people have made a very strong case for, and a lot has been 
developed to respond to that need and to make sure everybody is 
doing what is right. But sometimes we tend to legislate by 
exception. I am just wondering about the problems that would 
exist there if there were certain--if people had a greater 
ability to pick up those restricted fares as opposed to dealing 
with----
    Mr. Dominguez. DTS actually gives us the first time, 
because of the visibility you get into, who is traveling, what 
they are traveling, where they are going, how they are making 
the arrangements, how soon they are making the arrangements, 
who actually completes the travel that they book, so that 
business intelligence you can get now is really critical to 
supporting a review of the policy. The prior policy said across 
the board, don't buy these nonrefundable fares because too many 
of us can't travel when we plan to travel. Stuff happens, and 
we don't want to get the government, you know, left paying for 
an empty seat. So as a matter of policy, we closed off that 
option as a standard practice. We are relooking at whether that 
is the right policy for the future, particularly with the 
business intelligence as you get through DTS.
    So it is an excellent question now to see whether we are 
maximizing use of the taxpayers' dollars and whether we can be 
a little more flexible in our travel policies with the system 
that you get through DTS.
    Mr. Williams. That is consistent with our thinking on this, 
and that is that you need to take a look at some of the 
restricted fares, because sometimes there is a huge difference 
in the price, and if you have travel that, you know, will be 
occurring on some routine basis, some annual basis, some 
monthly basis, and you have got this huge difference in a 
restricted fare versus the city pair fare or some other fare, 
then we think it would be wise to take advantage of those 
opportunities.
    You talked a little bit about the issue here as far as some 
of the various requirements that--and rules that are in place 
that we have for government travel for DOD. And in looking at 
systems development across the government, one of the first 
things that we at GAO have basically talked about is that you 
need to take a look at your processes and your procedures and 
see if you can simplify those. So that is one of the things 
that I would suggest that the agency take a look at, and some 
of those rules and processes would require that DOD come to 
Congress and request for some legislation change, because if 
you can simplify those processes, it would really help this 
whole process, and you could recognize a lot of benefits across 
different areas, from efficiencies in the whole process, the 
development, and the interfaces and et cetera.
    So that is one of the things that GAO has constantly talked 
about, that you want to take a look at that and see if you can 
simplify and get away from 30-some different forms of travel, 
and see if you can get it down to a handful, if possible. As I 
said, it would require changes in policies and procedures as 
well as it would require some assistance from the Congress also 
in order to implement this.
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much.
    What percent of travel is now processed through DTS?
    Mr. Dominguez. Sir, we are on track to by the end of this 
year process 60 percent of the temporary-duty travel through 
DTS. We are probably about half--at 50 percent or so now, but 
it will be about 60 percent by the end of the year.
    Now, there is other kinds of travel, permanent-change-of-
station travel, that is not yet inside DTS. So just this 
temporary-duty travel.
    Mr. Bartlett. So the big increase from now until 2008, up 
to 3.2 million vouchers, is not increased travel, it is just 
increased use of DTS.
    Mr. Dominguez. That is correct, sir, increased use of DTS. 
So things like the travel to and from military entrance 
processing systems not yet covered by DTS, that is some of that 
added functionality that we will be getting to. So those kinds 
of things--as we add functionality, we will grab more of that 
travel. As we get to more sites where DTS capability exists, 
Guard and Reserve travel, when they are on Active service, so 
we pick up that travel, and that is where we get to that nearly 
100 percent of temporary duty (TDY).
    Mr. Bartlett. There was a chart up on the easel. Do you 
have that in front of you?
    Mr. Dominguez. Yes, sir. I don't think I have it, but I am 
familiar with the chart.
    Mr. Bartlett. Okay. I did the calculation, and there was, 
in fact, a little green bar across the top. It had the vouchers 
processed in 2006 and 2007, and there was, in fact, 72.4 
percent growth. But then when I look at the graph itself, there 
is some vertical green dotted lines and an arrow between them 
saying 72.4 percent growth. I am wondering what those lines 
are, because there is actually in excess of 175 percent growth 
between those two lines. I am a little confused.
    Mr. Dominguez. Yes, sir. The 72.4 is 2006 to 2007. So the 
chart is misleading because the arrow actually goes into 2008, 
and that is where that larger growth----
    Mr. Bartlett. The growth between those two vertical green 
dotted lines is, in fact, over 175 percent. Thank you.
    Where the system needs improvement, do we need to be 
involved in that in other than oversight? Is any additional 
legislation needed, or is the law adequate?
    Mr. Dominguez. Sir, presently I think your oversight is 
essential. We are right now conducting the review of travel 
policy in partnership with the General Services Agency and 
other federal partners that Mr. Williams just cited in his 
answer to a question a moment ago. So we are looking at that. 
Undoubtedly, as we think about how you simplify this very 
complex Defense travel environment, we will be coming back to 
the Congress with some suggestions for how through legislation 
we will need your authority to simplify the travel programs.
    Mr. Bartlett. So it is your anticipation that some of the 
needed improvements in the future will be statutory as well as 
regulatory?
    Mr. Dominguez. Yes, sir. I am almost positive.
    Mr. Bartlett. But not this year?
    Mr. Dominguez. No, sir, because we are only now into that 
review of how do we make this simple. So we won't have 
conclusions until September or October of 2008 here. So they 
will be on your desk for the fiscal year 2010 legislative 
cycle.
    Mr. Bartlett. Thank you very much.
    Thank you Mr. Chairman. I yield back.
    Dr. Snyder. Mr. Johnson, five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Congress has passed legislation called the Fly America Act 
that requires government employees to use American commercial 
carriers when at all feasible. However, DTS sometimes gives 
travelers the option to fly on a foreign-flagged carrier in 
violation of that statute or code sharing, which makes the 
distinction moot. How would the Department make sense of this, 
Mr. Dominguez?
    Mr. Dominguez. Sir, the DTS is designed to enforce, and 
that is part of the user complaints ironically. It does limit 
choices by virtue of enforcing through the software statutory 
and policy restrictions with regard to Defense travel. So it 
should not be offering options in violation of Fly America Act. 
So it will offer options--if you buy a ticket through United 
Airlines, for example, and they book you on their United 
Airlines partner for an overseas leg, that complies with the 
Fly America Act. Similarly, if you are stuck in Turkey, and you 
need to get out of there somehow, and there is not a U.S.-flag 
carrier or partner to do it, DTS will allow you with the right 
authorizations to book a flight on some other airline. But DTS 
does enforce the rules and requires the appropriate approvals 
if you are going to need to go outside of those rules.
    Mr. Johnson. Thank you, Mr. Dominguez.
    Some travelers have complained that when they are on 
extended travel, their credit card bill comes due before their 
travel is complete. For long periods of temporary duty or 
travel to overseas locations, this can be a lot of money, 
putting the burden on the traveler. The responsibility to pay 
credit card bills belongs to the traveler, but sometimes the 
reimbursement from the government arrives after the bill is 
due.
    What policies have been put in place to prevent members 
from being charged late charges or being punished?
    Mr. Dominguez. Sir, specifics on those I would like to take 
for the record, but I can say today there is a couple of 
things. The first is the ability to get travel advances. So if 
you anticipate or your boss anticipates that you will be gone 
for a long time, we get you an advance on that travel so that 
you can--you have the cash to be able to defer expenses, 
including with your travel card.
    The second thing is that DTS, one of the things that people 
do acknowledge that it has done is it has really compressed the 
time to get paid. So people are being paid in the three days 
from the time they submit a voucher through DTS instead of two 
weeks and longer. If you haven't completed your travel, and you 
are still on TDY and still incurring expenses--so I will get 
back to you, sir, on the record with an answer to that.
    [The information referred to can be found in the Appendix 
beginning on page 84.]
    Mr. Johnson. Thank you.
    Mr. Fisher, has the Department of Defense developed a 
capability to support all types of travel with DTS? And IDA's 
report listed 61 different types of travel with Department of 
Defense personnel, each governed by different rules within the 
joint travel regulations and the joint Federal travel 
regulations. What has been done to reduce the number of 
different travel types and integrate all of them into the DTS 
system?
    Mr. Fisher. I will take the first part of that, and then 
Mr. Dominguez, I think, can talk about the reduction of travel 
types.
    Our role is to accommodate those that are defined. We have 
accommodated about half of the travel types to date as of 2009, 
the end of fiscal year 2009. There will be two major releases 
in 2009 that will add significant on the TDY and the permanent-
duty travel that will come into place in 2009, which will get 
us up to, in terms of number of travel types, I think above the 
80 percent range, and by the end of fiscal year 2010, all of 
those--all travel types that are defined will be accommodated 
in DTS. So we will be at 100 percent accommodating for travel 
by the end of fiscal year 2010.
    In terms of reducing those or consolidating them, that 
would be more of a policy question, and I would----
    Mr. Dominguez. And, sir, we are undertaking right now a 
policy review, a look at all those different types of travel 
and how we might compress them and consolidate them both 
through policy and through legislation that we would seek help 
from the Congress on, probably in the fiscal year 2010 
legislative change proposal.
    Mr. Johnson. Thank you.
    Dr. Snyder. Mr. Conaway for five minutes.
    Mr. Conaway. Why do you shut the office down at 4:00 every 
day?
    Mr. Dominguez. The Defense Travel Management Office? First, 
I don't believe we do.
    Mr. Conaway. I had some users this morning who are 
currently in uniform and using it, and they said that after 
4:00 if you get jammed up on the Web site, you have got to wait 
until tomorrow. So you might just check that out.
    Mr. Dominguez. Thank you, sir. I will be happy to do that.
    Mr. Conaway. The last time I saw it, $500 million invested 
in this deal?
    Mr. Dominguez. It is probably more than that.
    Mr. Conaway. But $500 million, and we have done--if you 
just add the 2006 and 2007 and the projected 2008, that is 7 
million vouchers. We are now at $71 a voucher in our system, 
just the investment. That is not the operating costs and--so it 
is a head scratcher as to making sure we are making adequate 
progress.
    Mr. Dominguez, if I were in your seat and I had a 
knucklehead Congressman who came tricky-trotting in for a 
drive-by shooting like this one is and began to question your 
time line for getting all the others tribaled in, it would 
offend me, because I don't know everything about it that you 
do. But does the GAO look at this projected in the fiscal year 
2010, and your PERT chart, and all of your assumptions and your 
plans to do a very complicated rolling in of the rest of these 
types of travel, whether they are legacy systems or types of 
travel or whatever it is; GAO, do you give them a head nod, or 
do you give us a head nod that that is an appropriate time line 
for them to be on, or is it excessive, or is it too aggressive 
or too optimistic?
    Mr. Williams. I wouldn't be in a position to say right now 
because we haven't looked at it. It has been about a year and a 
half since we were in and looking at the operations. You don't 
want to--I don't want to make a projection, given the history 
that we have reported on that. You know, this was a process 
that started back in the mid-1990's, and I would not like to 
venture to project as to whether these days it will be met.
    Mr. Conaway. How would we go about, Mr. Chairman, asking 
the GAO to--I mean, this seems to me like a pretty important 
progressive line that we ought to have nailed down as best we 
can. You are the professionals. You are living and breathing 
this stuff. But Congress ought to have a second look at it. How 
do we trigger that GAO look?
    Dr. Snyder. Mr. Williams, you have a study you are about to 
undertake; do you not?
    Mr. Williams. For DTS?
    Dr. Snyder. Yeah.
    Mr. Williams. Not at this time. No, we do not.
    Mr. Conaway. I can't imagine--I mean, maybe Expedia does 
have $71 of ticket in their system.
    Mr. Dominguez. Sir, let me--it is very important to 
understand the difference between DTS----
    Mr. Conaway. You never did answer Roscoe's question. Of the 
13 billion we spend every year in travel, how much does DTS 
handle? What is your volume? You just total the volume, and I 
will do the math.
    Mr. Dominguez. Let's see. The numbers I have for that, in 
2008--I think actually Jay--Dr. Mandelbaum has the most recent 
numbers from 2006.
    Dr. Mandelbaum. 2006. And for that year, the TDY dollars we 
estimated to be about $7 billion.
    Mr. Dominguez. In temporary-duty travel.
    Dr. Mandelbaum. Right.
    Mr. Dominguez. No, sir. No. We have----
    Dr. Mandelbaum. In 2006, it was probably a bit less.
    Mr. Conaway. Well, are the financial numbers not available 
for 2007 yet? I mean, don't you know what the total TDY travel 
for 2007 is yet?
    Mr. Dominguez. We--yes, sir. I think we can take the 
question for the record.
    [The information referred to can be found in the Appendix 
beginning on page 83.]
    Mr. Dominguez. I think we spent in the $9 billion in TDY 
travel----
    Mr. Conaway. 6.3 billion----
    Mr. Dominguez. Now, again, we are on this curve so----
    Mr. Conaway. All right, 4.5 billion?
    Mr. Dominguez. By the end of 2008, we should be at 60 
percent. In 2007, you know, we weren't----
    Mr. Conaway. You said earlier you were at 50 percent now.
    Mr. Dominguez. That was my subjective assessment that we 
are about 50 percent.
    Mr. Conaway. TDY travel represents 9 billion--the total of 
13 billion.
    Mr. Dominguez. Yes, sir. I am not familiar with the $13 
billion number, but the $9 billion in fiscal year 2007 is the 
number that I have.
    Mr. Conaway. In 2010----
    Mr. Dominguez. We are going to have 100 percent of the 
travel types available. Now, whether we are going to have it 
all processed through--most of it will be processed through 
DTS, so we will be covering that whole enterprise.
    Mr. Conaway. I am not trying to be argumentative. I am just 
trying to make sure I understand it. And again, you know a 
whole lot more about this than I ever will. That is kind of why 
I wanted the GAO to have a look at it, because this time line 
and your estimate on that time line ought to be a pretty 
important piece of DTS's----
    Dr. Snyder. Mr. Williams, I guess I missed it. Your 
testimony was that you will do follow-up, but it is on your 
normal audit schedule?
    Mr. Williams. The follow-up that I am talking about in the 
testimony is that whenever we make recommendations in our 
reports, we follow up to see if those recommendations have been 
implemented.
    Dr. Snyder. When do you anticipate doing that?
    Mr. Williams. We will be starting that this late spring, 
this summer to look at the 14--this year. That is 
recommendations on previously issued reports.
    Mr. Conaway. But is this time line through--through the end 
of 2010, isn't that time line and your ability to beat that 
time line under your----
    Mr. Williams. No, no. That is not one of the 
recommendations that we will be following up on. This will be 
something completely different. This is following up on the 
recommendations in the previous reports and testimonies that we 
have issued.
    Dr. Snyder. They are going to be looking at it anyway. We 
can ask them to enhance that. They are going to be looking at 
the program anyway, so we can ask them to add on that.
    We had better recess. We have got to go vote, and we will 
be back. The staff can help you if you need phones or a private 
room or anything. We will be in recess.
    [Recess.]
    Dr. Snyder. We will resume. If you see Mr. Akin slip out, 
he has another commitment. Don't be alarmed.
    I wanted to ask; years ago, I was hitchhiking through 
Eastern Oregon. I came to a town so small that even the 24-hour 
restaurant was closed. That is a one-liner. It seems to me that 
is the situation we heard with regard to the 24-hour hotline. 
Now, maybe the problem is there is no--and hotline is not the 
proper word. There are multiple, multiple contracts. Is there 
not? How many, Secretary Dominguez, do you think, contracts? 
You have got a worldwide system here. How many different 
contractors do you think there are out there that are managing 
the 24-hour phones?
    Mr. Dominguez. Sir, it would be gross speculation but you 
hit the nail on the head. The issue is that commercial travel 
organizations, they actually buy the ticket, purchase the 
ticket, and provide the ticket to the member who is traveling, 
and are supposed to support that member then at the journey. 
And so they are also supposed to have after-hours numbers to 
serve the traveler.
    Dr. Snyder. It sounds as if we don't have good quality 
control assessments of that.
    Mr. Dominguez. That is correct. And part of what we are 
doing is related to the centralization of policy authority in 
the Under Secretary of Defense for Personnel and Readiness 
(USDP&R), is that we are moving from that legacy environment of 
many, many, many local arrangements for commercial travel 
service to our providing the commercial travel contracts 
globally for the DOD and awarding task orders under those so we 
can standardize quality and standardize the services.
    Dr. Snyder. I went on the DTS yesterday. There was a phone 
number too at the bottom. I assume it is the same number no 
matter where you geographically access the system.
    Mr. Dominguez. Yes, sir.
    Dr. Snyder. And yet it will ring at different places 
depending on what state you are in?
    Mr. Dominguez. No, sir. The difference between the tactical 
assistance, which is a 24-hour--24-by-7 hotline for DTS----
    Dr. Snyder. Which helps me walk through the DTS. Is 
different than?
    Mr. Dominguez. Than the after-hour service numbers provided 
by commercial travel organizations. So that if you at your 
installation--the CTO that is servicing you is supposed to 
provide after-hour service for your trip. Now, through DTS and 
through DTMO, we are trying to rationalize this thing and herd 
this thing together so that a call to the 24-hour Technical 
Assistance Center (TAC) hotline will get referred to a 24-hour 
or after-hour service by a commercial travel office. We will 
stay engaged with the traveler to get them help.
    Dr. Snyder. I don't think I saw the details of that in your 
written statement. Would you for the record provide us with a 
description of the number of contracts and description as best 
you can, including the things that maybe you are unclear about 
what is out there right now. That would be helpful.
    Mr. Dominguez. Yes, sir.
    [The information referred to can be found in the Appendix 
beginning on page 81.]
    Dr. Snyder. This chart right here that has been talked 
about multiple times--and I won't make that nice woman have to 
go find your chart again. But she is standing by it if we need 
it. If I was to extend this out as far as Dr. Mandelbaum and 
Mr. Williams want this thing to be extended so, whether it is 
2010, 2011, whatever it is, what is the number going to be of 
the number of vouchers processed in that year? How far out is 
that chart going to go? What is our universe we are talking 
about when we include not just TDYs, or your goal is 60 percent 
or whatever.
    Mr. Dominguez. Right.
    Dr. Snyder. But as far as when Mr. Conaway is satisfied 
that we have the entire universe, I don't have a sense of if we 
are looking at the tail or the dog. What is the number that is 
going to be out there? How many millions of vouchers are going 
to be processed when we are exactly where we want to be? Twenty 
million? Fifty million?
    Mr. Dominguez. Sir, I can't answer the question. Let me try 
it this way, if I could. Which is, in 2009 we will be at all 
the places we need to be at the end of 2009. By the end of 
2010, all travel types--this is commercial travel, this is not 
military travel or military air. So all travel types will be 
enabled in DTS. And there is a mandate: If we are there and we 
support the travel, you use DTS. So that by the end of fiscal 
year 2010, we should be done and 99 percent of all of this 
commercial travel should be done through the DTS system. And I 
don't know how many vouchers.
    Dr. Snyder. And I appreciate that. It seems like in terms 
of judging what the savings would be or potential savings, it 
seems like somewhere there should be a universe of how many 
vouchers.
    Mr. Akin.
    Mr. Akin. You are designing or farming out parts of the 
system; by an additional two years from now, 2010, you will 
have all of the different means of travel embodied in the 
system. Does that include things like hotels and things like 
that as well?
    Mr. Fisher. Hotels are supported today.
    Mr. Akin. So then, at that point, now that you have got the 
system designed and running, what is the ongoing cost to 
maintain it? Does it have just armies of programmers just to 
keep the thing up and running? Or is it pretty easy, is it not 
as big a group of people involved?
    Mr. Fisher. We will drop into a sustainment mode at the 
time that it--operational capability. If new requirements hop 
in, then that would be a variable sitting on top of that. We 
have already brought down, since the BTA took over the program 
two years ago, that operation's cost because we have 
streamlined some things from a management perspective. So we 
have both a Research, Development, Test & Evaluation (RDT&E) 
element of new capability that we are adding, new RDT&E 
appropriation, as well as the operations and maintenance, which 
is the ongoing sustainment of the solution.
    So I can probably get you for the record a projection of 
what that number would be based on our budget estimate, 
assuming no new requirements after that 2010.
    Mr. Akin. Of course, there will always be additional 
requirements coming and going, particularly if you refine some 
of what you are doing, which may make it simpler also. I am 
just trying to get a feel for the ongoing cost of the system in 
terms of volume of transaction. It would be interesting to know 
that every time you buy a ticket that it is costing you $10 for 
the ticket just because of the maintenance, or maybe it is $5 
or maybe it is $2. It would be interesting to know what that 
ongoing cost is, just the cost of having that system. 
Certainly, I would assume that Mr. Williams is talking about 
that is part of the purpose, is simplifying it so that you 
don't have to carry as much overhead and things. Plus, it is 
easier to use and everything else.
    Mr. Dominguez. Sir, it is important to understand that the 
DTS enables us to get some business intelligence that we don't 
now have to know--we don't know the baseline. That is part of 
the IDA study. We don't know the baseline for how much it is 
costing us in terms of indirect costs to operate our travel 
enterprise today. That is going to be captured in DTS, and the 
costs of those where we can find things are going to go down. 
It is simpler and cheaper now to process vouchers and get 
people paid than it used to be when you used DTS. It is cheaper 
in terms of the commercial travel organization fee. If you do 
your reservation through DTS, that fee is as little as $7, 
whereas if you call the travel agency it could be somewhere 
north of $25 for that reservation. So we are getting those kind 
of things now. And, in fact, the operations & support (O&S) 
cost to operate the travel system and the travel enterprise 
post DTS should be lower than what we are experiencing now.
    Mr. Akin. Thank you. Thank you, Mr. Chairman.
    Dr. Snyder. I will continue on. Mr. Akin, you jump in any 
time.
    So we have got legacy systems, which I think some of us got 
confused and thought when you talk about legacy systems that we 
were merging that with trip types. But you have got two 
different issues there.
    Why can't, Mr. Dominguez, you just issue an order that 
chips away at it in some other way that just says all trips by 
any uniformed or nonuniformed DOD person by July 1 of 2008 in 
which both ends of the travel are within the continental United 
States will be done by DTS? Why does it have to get broken 
down? Okay, the purpose is a--this is a temporary duty so it 
will be done by DTS; a permanent change of station is not done 
by DTS. Why can't it be something simpler than that? This is in 
the continental United States, it will be done by DTS. Why do 
you have to go through that? Why does the purposes of the 
travel make a difference? You have got like 70 different kinds 
of trips. Why did that become the determining factor?
    Mr. Dominguez. Well, because of the rules about what you 
can and can't do are different for these different trip types.
    Dr. Snyder. If somebody, like we had a person today that I 
think would like to be able to do their permanent change of 
station under DTS. But if it went on there, the rules wouldn't 
be right for them under the software. Is that what you are 
saying?
    Mr. Dominguez. Yes, sir.
    Dr. Snyder. So there is not a little box. So that does kind 
of come back around. And I recognize, we are all responsible 
for a program that started almost 10 years ago now. So we still 
at the 10-year mark don't have that kind of software developed 
that you can click a box that says permanent change of station 
and it would work?
    Mr. Dominguez. Right. And--you are right. And partly that 
is the function of the complexity of our travel environment, 
you know, and then the difficulties of developing this 
technology. Because, again, remember that this is not 
Travelocity. This thing is secure so that it operates inside 
the DOD Internet environment, so it has got to be secure. It 
does this transaction voucher, the financial end of the thing, 
and then forces these very complex business rules.
    Dr. Snyder. Help me. Use that as an example, or you can 
find another example if you want. What rule--as I went through 
the little thing and checked all the boxes yesterday when I 
went through my flight, what rule would there be different for 
a permanent change of station, like if a person traveled from 
Fort Benning, Georgia to El Paso, Texas? What reimbursement 
rule or processing rule would be different that would mean that 
you couldn't do that on--that doing it on DTS today would 
somehow impact negatively on either your budget or the service 
person's? Does that make sense?
    Mr. Dominguez. Yes, sir. The thing that I am looking at 
here, it doesn't relate to the airfare but it relates to the 
per diem rates, could be different for TDY travel than for PCS 
travel. So PCS travel it is limited to 10 days for CONUS-to-
CONUS (continental United States) moves. These may be split in 
any combination between the old and new duty station. So, you 
have got per diem here and per diem there. So that is different 
than under the TDY rules.
    Dr. Snyder. I understand.
    Mr. Fisher. I would also add, sir, there is also 
differences between military and civilian. The entitlements 
vary in some cases even, for example, within PCS travel. If you 
are a military member, the entitlement might be X; and if you 
are a civilian, the entitlement might be Y. That is the level 
of detail we need to account for.
    Dr. Snyder. That leads me to this issue of military 
lodging. My understanding if I am a uniformed person and I am 
going to travel to Little Rock Air Force Base, which has 
lodging, and I book my flight and I then, I guess if I am 
enlisted or whatever, at some point it will tell me you can't 
start booking hotels. You have to go to the base and find out 
if they have lodging the day you arrive. And if they do, then 
you have to go there. If they don't, then you can go find and 
make arrangements that evening for finding a hotel. Does that 
sound right to you?
    Mr. Fisher. Well, it is accurate that DTS, because of the 
services and the way they manage military lodging, don't have a 
technical architecture into which we can connect.
    Dr. Snyder. They are not on your system.
    Mr. Dominguez. Well, they may not have systems themselves 
to keep track.
    Dr. Snyder. Right. They are not on the system.
    Mr. Dominguez. But you can call ahead and you can make your 
reservation on the telephone. So you don't have to wait until 
you arrive there.
    Dr. Snyder. I understand. I want to go back then to the 
permanent change of station, talking about differences in per 
diem rates.
    Mr. Dominguez. Right.
    Dr. Snyder. Then why couldn't that same architecture be, 
okay, we have got your flight being the permanent change of 
station. You will have to make arrangements on your per diem 
when you get there. Do it by phone?
    Mr. Dominguez. Well, that is in fact the legacy environment 
now.
    Dr. Snyder. Because there is no difference at all.
    Mr. Dominguez. Right.
    Dr. Snyder. There is nothing about the flight that is 
different. But they can't do that now. They can't do permanent 
change of station now for flights though. Correct?
    Mr. Dominguez. I will have to get back to you on that.
    Dr. Snyder. We are told they can't. They are one of the 
types that you have not yet reached.
    Mr. Dominguez. That is correct.
    Mr. Fisher. And we look at a travel type in its totality. I 
think what you are suggesting is could you break it up and do 
the airline portion of permanent change of station but 
everything else would be done in the different manner. And 
right now that is not how we utilize the tool. We use it sort 
of as a trip type in whole.
    Dr. Snyder. I understand. It is just that we do break it up 
for uniformed personnel if they are going to a place that has 
military lodging. It is broken up because they have to make 
other arrangements. I understand.
    The issue of training. We haven't talked about that much 
today. There seems to be pretty much a uniform belief amongst 
the people we talked to that, once people understand the 
system, I kind of looked and I used to have a 1953 Ford pickup 
and it was the easiest thing in the world for me to drive 
because I drove it every day. But if I gave it to someone else 
they couldn't get it started. I never understood that. But it 
seems like that is the kind of system that you have, that 
people, once they use it and use it on a fairly regular basis, 
they get comfortable with it. They may have some glitches, but 
they can work around it.
    But the issue of training, where are we at with regard to 
the training? Are you satisfied with the level of training that 
is out there? Do you feel that you have work to do? How are you 
going to deal with a person who only has a trip once a year or 
maybe twice a year?
    Mr. Dominguez. Sir, we do have a lot of training. And you 
are exactly correct, it does takes some training and it takes 
some practice and it takes using the system to be familiar with 
it. And there may be some unalterable minimum that you get to 
in this, again because of the complexity of DOD's travel 
environment. But we have two things going on to address that.
    The first is the usability review. We have a bunch of 
people, smart people, users, we feel our technology partners, 
trying to think through this and trying to design a system from 
a customer's viewpoint so that it is intuitive for them to, you 
know, bang through it.
    The second thing we have going on is this simplification, a 
look at travel policy simplification and how can we pull the 
complexity out. Those two things give me some hope. In the 
interim----
    Dr. Snyder. And the second portion is maybe where you need 
some legislative help.
    Mr. Dominguez. I would expect that that might be necessary.
    Dr. Snyder. Thank you. You touched on the overseas stuff. I 
guess the only conclusion is it, any complexities you have 
domestically are amplified when you start talking about 
overseas stuff, particularly talking about going into war zones 
potentially or using foreign airlines or the difficulty of 
getting the telephone help you need when you are having to find 
a telephone. I don't think I will touch on that anymore.
    What about the issue of the ability to use a system from 
home on a personal computer? Are we heading that way or not?
    Mr. Dominguez. Sir, the system is a bundle of software--and 
Dave is better at this; I just deal from the policy--but that 
is inside the DOD network. And as such, access to it has to be 
controlled to protect the DOD network. The common access card 
(CAC) is required by DOD policy for access to any system inside 
the DOD's environment.
    Dr. Snyder. So that would include the computers in your 
office or your official laptop. And you don't foresee we would 
ever get to the point--obviously if a person leaves the office 
on a Friday and changes can occur, it would be helpful to be 
able on a Sunday afternoon to go on. But that is not available. 
So they have to get on the phone to make those kind of changes.
    Mr. Fisher. If they have a government-issued computer or if 
they have a CAC card reader that you can use on a home computer 
that enables the system to authorize or recognize you, you can 
use the tool from home. Like when I bring my laptop home, it 
has a CAC card reader in it, and I can access the DOD network. 
That is okay. But I can't use it on my home computer that 
doesn't have a CAC card reader. And I actually, from what I 
understand from where the Department is going, it is going to 
be more of that because of the security issues.
    Dr. Snyder. I got you. The issue came up of group travel. 
Would you explain the rules of group travel? How does it work 
currently? I have got a group of five and Ms. Fenner has a 
group of 15. We want to go at the same time, the same plane, 
the same itinerary. How does that work?
    Mr. Dominguez. Sir, DTS can process group travel 
authorization. So it can do it.
    Dr. Snyder. At what numbers?
    Mr. Dominguez. Well, beyond two. But I am not sure at what 
end.
    Dr. Snyder. The complaint that we heard was that in fact it 
had to be, I think, 10 or more. Is that correct? That if I have 
got a group of eight or nine, it would not recognize it as a 
group travel? We would have to have eight or nine individuals 
entered into it, and it would save everybody time to just say I 
have got a group of eight? It didn't make sense. Why would you 
have to have a----
    Mr. Dominguez. Airline industry rules require a group size 
of 10 or more to travel at negotiated group rates. And so, 
again, because of airline rules, we need to negotiate with the 
airline.
    Dr. Snyder. That is a different issue. I thought what you 
said, negotiated group rates, I thought the point was the 
convenience of the person entering them in. So you have got the 
gunnery sergeant who has got eight Marines that he is trying to 
get someplace. He is not trying to negotiate for a rate; he is 
just trying to enter them all at the same time. But it is an 
airline obstruction.
    Mr. Dominguez. Once you hit 10, then the airline travel 
rules require that so we need to have some prior negotiation 
about groups or you would have to make arrangements for that 
group. That is, again, where you need to go to the commercial 
travel office and say here is the issue, please work it.
    Dr. Snyder. You would think that we could have a computer 
system that, even if we weren't trying to negotiate a group 
rate, that your system would do it eight times automatically if 
you hit a button that said eight.
    Mr. Dominguez. I believe DTS will do that for under 10.
    Dr. Snyder. That may be right. But would you get back to me 
on that for the record? The information we received from people 
who do this is that it doesn't.
    Mr. Fisher. I think the only thing about the magic number 
10 is about the group rates applying, not about organizing a 
group to facilitate travel. But we will verify that.
    [The information referred to can be found in the Appendix 
beginning on page 81.]
    Dr. Snyder. That would be helpful.
    Someplace in maybe one of your all's reports--I may be 
wrong. I had some recollection that there has been some issue 
in the past that part of the savings, or perhaps not today but 
in years past, part of the issue in terms of failure of 
realizing some of the savings predicted is that we were not 
doing as good a job of getting money back from airlines that 
was owed to us for tickets for flights that didn't occur. Do 
any of you have any comments about the status of that, or do 
you think we are in good shape on that? I book my 10 people, 
the bus breaks down, they miss the flight. Are we recouping all 
the money?
    Mr. Dominguez. For flights that we didn't take? I will have 
to get back to you.
    Mr. Williams. Let me speak to that. This is an issue that 
we raised at GAO in one of our reports. It was unused airline 
tickets. We reported that that was an area that needed to be 
looked at. And I think in the report we also talked about the 
DOD taking a look at a program that it could utilize that would 
basically identify unused tickets and utilization of that 
particular program would be able to recoup the monies for those 
unused tickets. I don't know the status of where they are at 
right now, but this is the recommendation.
    Dr. Snyder. My recollection is you did not have any 
prediction in terms of amounts of money that might potentially 
be.
    Mr. Dominguez. Sir, I do want to say that DTS enables that 
kind of intervention, which is not possible today because we 
don't know what is going on out there today, especially with 
these things that are done locally, by local contract through 
commercial travel offices. But as more stuff is in DTS, you 
know, you know whether the thing has been used or not. So that 
is the kind of business intelligence that DTS will enable 
management intervention.
    Mr. Williams. And in that process, I think that in the new 
agreements with the CTOs there was a provision that each CTO 
was to take a look at that and to recoup that money. And that 
is why we had the recommendation that you need to get this 
program to make sure it is done on a consistent basis across 
the entire operation.
    Dr. Snyder. During the break, staff--this Quick Compass 
survey. Are you familiar with those results?
    Mr. Dominguez. Yes, sir.
    Dr. Snyder. And I don't know what the requirement is of 
people to use this or to fill this thing out. Maybe it is like, 
well, a completely optional thing. But one thing that gives it 
some credibility is, in response to the question ``I get paid 
quickly,'' you had really overwhelming agreement with that, and 
just right around 10 or 12 percent that said they didn't agree 
with that. But when you look at some of the other categories, 
now these are the same people who said very positive things 
about getting paid quickly, it is not overwhelmingly positive 
at all. It is: It is user friendly, 36 percent, 35 percent. 
Training is sufficient, 38 percent. I am just guessing about 
these numbers. I like DTS more than a travel agent, actually 
lost out to--there is just a lot of work to do on this.
    Mr. Dominguez. Yes, sir. Absolutely. I acknowledge this 
system was not developed with the customer at the center, and 
that is a major focus. The fact that we are doing these Quick 
Compass is about getting us on the right track with that, 
because this is absolutely the journey that remains in front of 
us, is customer satisfaction.
    Dr. Snyder. Two final questions, Mr. Secretary. My 
understanding was that during the break--did you come up with 
some answers you wanted to share with us?
    Mr. Dominguez. Yes, sir. Just some points of clarification 
on a couple things. The first is on the money issues that Mr. 
Conaway was talking about. The first is--I don't know the 
source of the $13 billion number. That may include travel other 
than the commercial travel.
    We in fiscal year 2007 spent $9 billion in commercial 
travel. $2.4 billion of that was processed through DTS. Now, 
there is a difference between the number of vouchers that we 
have processed and the dollars that--but we are on track, as I 
said before, to try to capture all of that.
    Dr. Snyder. Did you say $2.4 billion out of 8.5, $9 
billion?
    Mr. Dominguez. Yes, $9 billion in fiscal year 2007. Again, 
but that was earlier, not all travel types, et cetera. So we 
are on course, though, to capture all of that through DTS.
    Dr. Snyder. We will pass that on to Mr. Conaway. Those 
accountants like that kind of information.
    Mr. Dominguez. I wanted to talk to you, sir, about the 800 
numbers, which we covered a little bit, to differentiate 
between the Technical Assistance Center and the commercial 
travel office after hours. And we are working both of those 
problems for sure.
    And then the fact of--the third item was people on extended 
temporary duty and the fact of their government travel card.
    Dr. Snyder. Right.
    Mr. Dominguez. You can submit travel vouchers while you are 
on that travel. And there is many different ways to get them 
in, including calling back and having someone enter a DTS on 
your behalf and file the voucher for you. But one of the 
interesting things is that DTS enables a travel administrator 
to go in and see travel vouchers and claims and bills that are 
coming due that someone hasn't filed their voucher for. So 
travel administrators can intervene to assist people who are in 
these circumstances and for whatever reason haven't filed their 
voucher. So, again, this is the business intelligence that 
enables sound management to the travel enterprise.
    Dr. Snyder. So then you can go back to your training, and 
maybe that is something that needs to be covered a little more 
clearly.
    Mr. Dominguez. Yes, sir.
    Dr. Snyder. My last question, and I appreciate your all's 
patience--we got interrupted by votes and we got started late 
to begin with--is for you, Mr. Fisher. Tell me, give me a 
summary of the Business Transformation Agency and what all you 
are doing and what you are involved in. You are a relatively 
new creation. How many employees do you have? What is your 
budget? Give me a tutorial on that.
    Mr. Fisher. We were stood up 2-1/2 years ago. We have 251 
government staff as of last count, with about 700-odd 
contractors as well. So a little under 1,000 personnel total. 
Budget's in the $350 million to $360 million range. We have 
two--you can sort of think of our organization in two parts. 
There is the part that does things like DTS, that we have a 
portfolio of 27 business systems. By definition, the systems we 
own cross the services. So DTS is used by everyone. The Defense 
Integrated Military Human Resources System (DIMHRS), the new 
military human resources and personnel and pay system, will be 
used by all the services. So programs that are used by all 
services are the kinds of programs that we inherited. If it is 
a Navy specific program or an Army specific program, those 
didn't come to us. So we have a portfolio of these 27 systems, 
and they span travel, personnel, logistics, acquisition, 
finance, all the business areas.
    The other half of the organization is more on what I call 
the guidance side, the requirements side. So we have a group of 
folks that work very closely with the principal staff 
assistants, the under secretaries in the Pentagon who set 
policy and really drive enterprise level requirements. We work 
with them to translate those requirements into something that 
can be implemented. So we own our responsibility for the 
Department's business enterprise architecture, which is a 
repository of rules--there is nothing more complicated than 
that--that says, here are the standards that we, the 
Department, have decided we are all going to do the same way. 
So we have that responsibility to collect those requirements 
and put them in an architectural form that people can use. And 
then we work with both our programs and the component programs 
on the best way to actually implement those in systems.
    So, in a way, we are a conduit between the more higher 
level requirement folks, policy setting, and the people who are 
actually implementing these requirements. Whether it is at OSD 
level or at the component level, we build that bridge in 
between to try to help everyone understand what those 
requirements are and best practice ways to implement them. And 
then, on the other side, is the actual systems that we own.
    Dr. Snyder. And then you come back around at the end and 
assess how you did?
    Mr. Fisher. We do both from an investment management 
standpoint. So BTA has the responsibility to facilitate the 
investment review process in the Department. So we look at 
compliance to architecture of those systems that are being 
implemented. They come through a process on an annual basis to 
get reviewed, and we facilitate that process. And we also do 
reviews of programs. The larger scale component programs, we 
assist the milestone decision authority, the person who has 
that ability to say, yes, you can go the next step as to 
whether or not, from a risk-based perspective, if that program 
is healthy enough to move forward.
    So we serve sort of different masters in OSD to try to help 
guide them on the health of programs and our ability to make 
progress, and then we also help the programs that are trying to 
implement these enterprise standards, get them to understand 
what they are and best practice ways to implement them.
    Dr. Snyder. Have you had this position since the beginning?
    Mr. Fisher. I was with the organization from the beginning. 
I was the first director named to the organization. First 
permanent director. And that position was staffed just over a 
year ago, but I joined the Department just prior to the standup 
of the BTA.
    Dr. Snyder. And how many times have you testified before 
Congress?
    Mr. Fisher. This is the first time, sir.
    Dr. Snyder. Probably our neglect.
    I appreciate your all being here today and I appreciate 
your efforts to sort this out. Secretary Dominguez, you have 
testified in the past. There are certain topics that come 
before the Congress on kind of an annual basis such as health 
care, retention and recruitment, and some of those things. And 
this defense travel system may be one of those topics that the 
Congress may on an annual basis or some regularity ought to 
look at, particularly as if we start getting into areas or you 
are implying that we have areas that are maybe needing 
statutory fixes. So don't be surprised if we decide to revisit 
this in a year or so. I think it would be probably helpful for 
us.
    And, Mr. Williams, don't be surprised if you get a letter 
from us saying that perhaps you ought to move up--the GAO look 
at some of the milestones you all set down. But thank you all 
very much. Again, I apologize we had the delay with votes. We 
are adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 15, 2008

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 15, 2008

=======================================================================

      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 15, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Some DTS users are unaware that 24-hour toll free 
telephone assistance exists, and others say that their calls are not 
always answered. What is the status of the all-hours worldwide support 
line for the DTS website? Are all Commercial Travel Offices required to 
provide all-hours support to both domestic and overseas travelers for 
trip changes? If so, how is their performance verified?
    Mr. Dominguez. The Traveler Assistance Center (TAC) was established 
August 31, 2007, and is in the process of a three phase implementation, 
with the final phase scheduled to begin 1 October, 2008. Each phase of 
implementation will add greater levels of assistance to additional 
groups of travelers. The TAC is currently in phase II and provides 
Defense Travel System (DTS) related assistance to all travelers with 
the exception of the Army. This means Army travelers do not have, and 
are therefore largely unaware of, the 24-hour number. The TAC will 
become available to the Army in 4th quarter, 2008, and at that point, 
phase II will be completed. In phase III, service will expand to 
provide all travelers with assistance for all travel issues (rental 
car, air, hotel, policy, travel card), not just DTS.
    For those currently being serviced, the TAC is available worldwide, 
24 hours per day, 7 days per week, via toll-free telephone number, e-
mail, and self-support web site. A state-of-the-art automatic call 
distribution (ACD) system logs each incoming call to ensure that all 
calls are answered as efficiently as possible. TAC ACD performance 
reports are reviewed monthly by the DTMO to verify that contractual 
performance standards are met.
    Additionally, Defense Travel Management Office (DTMO) Commercial 
Travel Office (CTO) worldwide contracts, supporting both domestic and 
overseas travel, require standard all-hours support for trip changes. 
The remaining Service and Agency CTO contracts also contain all-hours 
support language; however, it is not standardized. Those contracts will 
transition to the DTMO worldwide acquisition by third quarter 2009.
    The DTMO requires CTOs to perform quality control on their 
performance, to include all-hours support. Performance reports are 
provided to the DTMO by the CTOs as part of the government's quality 
assurance process. In addition, the government performs quality 
assurance surveillance to include addressing customer complaints, 
random inspections, and receiving feedback from field quality assurance 
evaluators.
    Dr. Snyder. How many different contracts does the Department of 
Defense have with Commercial Travel Offices? Are these contracts 
standardized, particularly as regards all-hours worldwide support for 
travelers? If not, what is the nature of these different contracts and 
what is the Department's plan to standardize them?
    Mr. Dominguez. The Defense Travel Management Office (DTMO) is 
currently in the process of a Commercial Travel Office (CTO) 
consolidation initiative. Prior to beginning this effort, there were 
over 100 CTO contracts, managed by over 50 different organizations 
within the Department of Defense. Contracts currently managed by other 
organizations may include differing language, including that for after-
hours support, based on the specific requirements of the managing 
organization. The DTMO awarded a worldwide CTO contract in September 
2007, selecting eight vendors to further compete for 11 task orders. 
Task order issuance is currently in progress, with award of the first 
task order for Worldwide Commercial Travel having been awarded on May 
15, 2008, for the Continental United States Marine Corps and select 
Defense Agencies. It is valued at over $14 million, with implementation 
scheduled to occur over the period July-November 2008. We anticipate 
all task orders will be awarded by the end of July 2008.
    Upon completion of the CTO contract consolidation in 2009, there 
will be approximately 50 CTO contracts centrally managed by one 
organization, the DTMO. These 50 contracts will include small business, 
pending task orders (that will become formal contracts upon award), as 
well as a small few individually tailored contracts that provide a 
unique service. This consolidation will ensure all contracts contain 
standardized language that includes specific requirements for all-
hours, worldwide support for travelers.
    Dr. Snyder. In 2006, the Government Accountability Office 
recommended that the Department identify unused travel tickets and 
process them for refunds. What is the status of this effort?
    Mr. Dominguez. The Government Accountability Office's (GAO) report 
found 27,000 instances of potential improper payments and recommended 
that the Department of Defense (DOD) determine if improper payments 
were made and, if so, to recover the cost of the airline tickets. To 
date, all the potential improper payments have been researched. In 
those cases where an actual improper payment was found, and where 
extenuating circumstances (death of traveler/statute of limitations) 
did not preclude it, collection has been made, with the exception of 66 
transactions that, for various reasons, cannot feasibly be researched 
further.
    Additionally, as a result of GAO's recommendation, DOD Commercial 
Travel Office (CTO) contracts, both the Defense Travel Management 
Office (DTMO) worldwide contract and those contracts managed by the 
Military Services and Defense Agencies, require the CTOs to identify 
and cancel unused tickets 30 days after the planned trip date and then 
initiate the process for refund. CTOs are also required to provide 
quarterly unused ticket reports to DOD in accordance with policy 
guidelines. All CTOs will be required to provide monthly reports as the 
Department continues to consolidate management of CTO contracts, 
scheduled for completion by 3d Quarter, Fiscal Year 2009.
    Dr. Snyder. DTS currently allows a user to designate a ``group 
travel'' option if traveling in a party of ten or more, in accordance 
with airline ticketing policies for group discounts. Is it possible for 
DTS to also treat parties of less than ten as a group even without an 
airline discount, in order to relieve data entry and travel adjustment 
burden on the user?
    Mr. Dominguez. Parties of two or more travelers can be treated as a 
group in the Defense Travel System (DTS). The DTS Group Travel function 
is a workflow tool that streamlines the administrative burden 
associated with data entry and reservations. A designated lead traveler 
is able to create a single travel authorization for all travelers, view 
airline, lodging and rental car information, e-mail a reservation 
request to the Commercial Travel Office, and route travel documents for 
review and approval.
    Dr. Snyder. You said that you plan on asking Congress for 
legislative help in simplifying and streamlining certain travel 
procedures and policies. When will your review be complete? When do you 
anticipate making a request to Congress? In general terms, what types 
of policies do you envision changing, and what kind of legislation 
would Congress be asked to consider?
    Mr. Dominguez. We are currently working on a complete travel policy 
review with the General Services Administration (GSA). Overall, this is 
a major action that will require implementation of changes 
incrementally, working as an inter-agency effort. To materially reduce 
``travel types'' and simplify travel policies will require two-to-three 
years extending into Fiscal Year (FY) 2010.
    Specifically, Permanent Change of Station initiatives are currently 
being vetted and recommended temporary duty travel policy changes and 
legislative proposals will be developed/processed in the first quarter 
of FY 2009. It is anticipated that GSA/Department of Defense will 
propose legislation in FY 2010.
    Dr. Snyder. In reference to the ``Buy America Act,'' isn't allowing 
DOD passengers to fly on foreign carriers as code-sharing partners 
creating a distinction without a difference in barring them from flying 
on foreign carriers otherwise? Would you recommend a change Congress 
could make to clarify this?
    Mr. Dominguez. No, the distinction in allowing the Department of 
Defense (DOD) passengers to fly on foreign carriers as code-sharing 
partners does not create distinction without a difference in barring 
travelers from flying on foreign carriers otherwise. Code sharing is 
common industry practice that allows, by law, an airline to put its 
two-letter identification code on the flights of another airline. Code 
share flights are marketed by United States (U.S.) carriers as their 
own flights and as such, the U.S. carrier assumes responsibility for 
the flight.
    DOD is currently performing a travel policy review in collaboration 
with General Services Administration. This effort will take an in depth 
look at the complexities of foreign travel, to include the ``Buy 
American Act'' (Fly America Act). During the review process, there may 
be areas identified that require congressional assistance, to include 
clarification of certain portions of the ``Fly America Act,'' and 
recommendations will be made accordingly.
    Dr. Snyder. Why do DOD civilians not have to get non-availability 
statements for billeting and therefore can use DTS for hotel 
reservations, when military travelers cannot? Shouldn't uniformed and 
non-uniformed passengers, especially those traveling together, be 
either able to use DTS, or be required to get non-availability 
statements, equally?
    Mr. Dominguez. Both Department of Defense (DOD) civilians and 
military members can use the Defense Travel System; however, in some 
instances, different regulations apply to each. Government civilians 
are not required to stay in government quarters in accordance with the 
Comptroller General (44 Comp. Gen. 626) decision interpreting Title 5, 
United States Code, Section 5911(e). That same decision contains 
language that allows the Services to require military members to stay 
in government quarters when available. However, DOD does allow the 
military member's supervisor to determine when use of government 
quarters will adversely affect mission performance and to subsequently 
approve commercial billeting. In those cases, service members do not 
need to obtain a non-availability statement.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. AKIN
    Mr. Akin. What is the Department's priority list and timeline for 
incorporating the different types of defense travel types into DTS? 
What is its priority list and timeline for phasing out legacy travel 
systems?
    Mr. Dominguez. The Department's priority and timeline for 
incorporating different types of travel into the Defense Travel System 
by summer 2010 is specialized types of temporary duty travel (e.g., 
emergency and witness travel), permanent change of station travel, 
deployment travel, and recruit travel. A sunset plan for legacy systems 
will be developed by the end of Fiscal Year 2010. We anticipate these 
systems will be mandated for shutdown within two years following that 
date.
    Mr. Akin. What is the projected annual cost of maintaining the DTS 
administrative and technical infrastructure once it encompasses all 
Departments of Defense travel? What would be a standard industry 
projection of costs for required RDT&E and upgrades during sustainment?
    Mr. Dominguez. That costs associated with maintaining the Defense 
Travel System (DTS) administrative and technical infrastructure 
(sustainment costs) once the system encompasses all Department of 
Defense travel, is on average, for the first five years (Fiscal Year 
(FY) 2011-FY 2015) $40 million per year. This estimate includes the 
following:

        <bullet>  DTS-Program Management Office support

        <bullet>  Technology refreshes; interface connectivity; testing

        <bullet>  Non-Classified Internet Protocol Router Network 
        connectivity to DTS

        <bullet>  Business Intelligence software maintenance

        <bullet>  Defense Manpower Data Center archival of travel 
        vouchers and related documents

        <bullet>  DTS reservation module's airline pricing and 
        availability query services; the costs associated with the 
        Defense Travel Management Office's (DTMO's) Travel Assistance 
        Center

        <bullet>  DTMO's DTS training initiatives

        <bullet>  Service and Agency semi-annual DTS operations fees to 
        run and maintain system operations and sustainment.

    Additional requirements for enhanced capabilities would be over and 
above this level of system sustainment.
    A standard industry projection of annual costs for required 
research, development, training and evaluation (RDT&E) and system 
upgrades, above and beyond system sustainment support as mentioned 
above, for large information technology systems, is approximately 17% 
of the lifecycle development costs (Gartner, Management Update: How to 
State Estimating Software Life Cycle Costs, July 2005). Throughout the 
sustainment phase of the DTS lifecycle, the projected annual costs for 
DTS RDT&E and upgrades is below industry standards (approximately 4% of 
the lifecycle development costs).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. What are the total travel costs per year managed by 
DTS over the past five years?
    Mr. Dominguez. Below are the Defense Travel System (DTS) 
disbursements and Department of Defense total travel budget for Fiscal 
Year (FY) 2003 through FY 2007. DTS disbursement data was not 
consolidated for reporting until Fiscal Year 2005. DTS disbursements 
for FY 2003 and FY 2004 are estimates based upon the number of vouchers 
processed in DTS and the average disbursement per voucher in FY 2005. 
We expect DTS usage to continue to increase at a significant rate not 
only because of further fielding and proliferation, but also as we 
expand the system's capabilities to handle additional types of travel 
through FY 2010.


------------------------------------------------------------------------
                            DTS Disbursements
-------------------------------------------------------------------------
            Fiscal Year                       Dollars (Millions)
------------------------------------------------------------------------
2007                                 2,370
------------------------------------------------------------------------
2006                                 1,131
------------------------------------------------------------------------
2005                                 395
------------------------------------------------------------------------
2004                                 111
------------------------------------------------------------------------
2003                                 16
------------------------------------------------------------------------



------------------------------------------------------------------------
                DOD Travel and Transportation of Persons
-------------------------------------------------------------------------
            Fiscal Year                       Dollars (Millions)
------------------------------------------------------------------------
2007                                 9,368
------------------------------------------------------------------------
2006                                 8,461
------------------------------------------------------------------------
2005                                 10,294
------------------------------------------------------------------------
2004                                 8,828
------------------------------------------------------------------------
2003                                 8,262
------------------------------------------------------------------------


                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. Some travelers have complained that when they are on 
extended travel, their credit card bill comes due before their travel 
is complete. For long periods of temporary duty or travel to overseas 
locations this can be a lot of money, putting a burden on the traveler. 
The responsibility to pay credit card bills belongs to the traveler, 
but sometimes the reimbursement from the government arrives after the 
bill is due. Besides taking a limited travel advance before the credit 
card bill is due, what other policies have been put in place to prevent 
members from being charged late charges or being punished?
    Mr. Dominguez. Cardholders who are on extended travel orders do not 
have to wait until they return from travel to submit vouchers for 
reimbursement or to pay their outstanding travel card bills. 
Cardholders have the option to submit vouchers at specified intervals 
during their travel through the Scheduled Partial Payment process. This 
allows them to receive reimbursement while on long-term temporary duty 
(TDY) so that payment can be made on their account through the bank's 
electronic access system. If a traveler knows ahead of time that this 
is not a feasible option, they can be placed in ``mission critical 
status'' by their Agency Program Coordinator prior to travel. ``Mission 
Critical'' is a designation used to accommodate the unique requirements 
of Department of Defense (DOD), and is designed for individuals who may 
be TDY to locations that preclude filing interim vouchers and making 
prompt payments. It requires prior approval by the cardholder's 
commanding officer/supervisor.
    Reimbursement through the Defense Travel System currently takes, on 
average, 8 days or less, from the time the traveler signs his travel 
claim, including approval and disbursement. By law, DOD must pay 
reimbursements to travelers within 30 days. In cases where 
reimbursement is outstanding beyond 30 days, through no fault of the 
traveler, the traveler will be paid interest on authorized 
reimbursement amounts. If a cardholder is charged a late fee as the 
result of a late payment, they will be reimbursed (interest rates are 
never applied to the DOD Government Travel Charge Card (GTCC)). 
However, a bill does not become delinquent until 60 days after the 
billing due date and late fees are not incurred until a delinquent 
account becomes 75 days past due. Further, an outstanding bill will not 
be reported to the credit bureau unless the bill has remained unpaid 
for 210 days. These are extraordinary measures, put in place to protect 
DOD travelers, that make the GTCC very different from other commercial 
travel cards.

                                  <all>

</pre></body></html>
